     Management Advisory Report




   Single Audit of the State of
Nebraska for the Fiscal Year Ended
          June 30, 2011




       A-77-13-00004| February 2013
Single Audit of the State of Nebraska for the Fiscal Year
Ended June 30, 2011
A-77-13-00004
February 2013                                                            Office of Audit Report Summary

Objective                                Findings

To report internal control weaknesses,   The single audit reported the following.
noncompliance issues, and
unallowable costs identified in the      •   The DDS does not check the Excluded Parties List System
single audit to the Social Security          (EPLS) to verify that consultative examination (CE) vendors
Administration (SSA) for resolution          were not suspended or debarred from receiving Federal funds.
action.
                                         •   The tone of the DDS managements’ attitude toward
Background                                   encouraging employees to report suspected fraud, waste, or
                                             violations of law was unacceptable.
The Nebraska Auditor of Public
Accounts performed the single audit of   Recommendations
the State of Nebraska. SSA is
responsible for resolving single audit   We recommend that SSA:
findings related to its Disability
Insurance program. The Nebraska          1. Advise the DDS as to whether it is required to check the EPLS
Department of Education is the              to verify that CE vendors are not suspended or debarred from
Nebraska Disability Determination           receiving Federal funds.
Section’s (DDS) parent agency.
                                         2. Determine whether the DDS’ procedures for encouraging
                                            employees to report fraud, waste, and violations of law are
                                            sufficient.
MEMORANDUM

Date:      February 26, 2013                                                       Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Audit Management Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Nebraska for the Fiscal Year Ended June 30, 2011 (A-77-13-00004)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Nebraska for the Fiscal Year ended June 30, 2011. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Nebraska Auditor of Public Accounts conducted the audit. The results of the reviews
           conducted by the Department of Health and Human Services (HHS) concluded that the audit
           generally met Federal requirements. In reporting the results of the single audit, we relied entirely
           on the internal control and compliance work performed by the Nebraska Auditor of Public
           Accounts and the reviews performed by HHS. We conducted our review in accordance with the
           Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
           and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Nebraska Disability Determination Section (DDS) conducts disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is reimbursed for
           100 percent of allowable costs. The Nebraska Department of Education is the Nebraska DDS’
           parent agency.




           1
            State of Nebraska Statewide Single Audit Year Ended June 30, 2011.
           http://www.auditors.nebraska.gov/APA_Reports/2012/SA200-03272012-
           July_1_2010_through_June_30_2011_Statewide_Single_Report.pdf.(last viewed February 12, 2013).
Page 2 - Gary S. Hatcher

The single audit reported the following.

•      The DDS does not check the Excluded Parties List System (EPLS) to verify that consultative
       examination (CE) vendors were not suspended or debarred from receiving Federal funds. 2 In
       response to the finding, DDS stated it was not required by SSA regulations to verify through
       EPLS whether CE vendors were suspended or debarred from receiving Federal funds.
       Instead, the DDS stated that it adhered to SSA regulations requiring that the DDS check the
       HHS Office of Inspector General’s List of Excluded Individuals and Entities to determine
       whether vendors were suspended or debarred.

•      The tone of the DDS managements’ attitude toward encouraging employees to report
       suspected fraud, waste, or violations of law was unacceptable. 3 In response to the finding,
       DDS indicated that it had a policy that encouraged employees to report fraud, waste, or
       violation of law, and agency employees received annual reminders.

We recommend that SSA:

1. Advise the DDS as to whether it is required to check the EPLS to verify that CE vendors are
   not suspended or debarred from receiving Federal funds.

2. Determine whether the DDS’ procedures for encouraging employees to report fraud, waste,
   and violations of law are sufficient.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                  Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 11-13-05.
3
    Id. at finding 11-13-06.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
